                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Review of Hotline Complaint
                     Concerning Cost and Benefit
                     Estimates for EPA’s
                     Lead-Based Paint Rule
                     Report No. 12-P-0600                    July 25, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Carolyn Copper
                                                   Patrick Milligan
                                                   Anne Bavuso
                                                   Kate Kimmel




Abbreviations

CASAC         Clean Air Scientific Advisory Committee
EPA           U.S. Environmental Protection Agency
IQ            Intelligence Quotient
OIG           Office of Inspector General
OMB           Office of Management and Budget
RRP           Renovation, Repair, and Paint
TSCA          Toxic Substances Control Act




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0600
                                                                                                           July 25, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Review of Hotline Complaint Concerning Cost and 

                                    Benefit Estimates for EPA’s Lead-Based Paint Rule 

The Office of Inspector
General received a hotline           What We Found
complaint concerning the
U.S. Environmental Protection       Although EPA stated that its economic analysis underwent extensive intra-
Agency’s (EPA’s) 2008 Lead;         Agency review and was approved by the Office of Management Budget prior to
Renovation, Repair, and             publication, EPA used limited data to develop its cost and benefit estimates for
Painting Rule (Lead Rule).          the Lead Rule. We did not conclude that EPA violated policies or failed to follow
We conducted this review to         requirements in conducting its analysis. Rather, EPA conducted its economic
evaluate how EPA determined         analysis under time pressures and subsequently used its discretion to complete its
the costs and benefits of the       analysis using some limited data and approaches. EPA’s economic analyses were
Lead Rule.                          limited in that:

Background                                 The estimated cleaning and containment work practice costs to comply
                                            with the rule were not based on a statistically valid survey.
The purpose of the Lead Rule               EPA did not quantitatively analyze or include other costs outlined in
was to address lead-based paint             Agency guidance, such as costs due to increased consumer prices, costs
hazards created by renovation,              of unemployment, and costs to markets indirectly affected by the rule.
repair, and painting activities            EPA did not include the cost to renovation businesses of securing
that disturb lead-based paint in            additional liability insurance.
target housing. Under the rule,            EPA recommended additional work practices in a training program that,
regulated businesses that                   while not required by the rule, would likely result in additional cost
perform renovation, repair, or              because the regulated community would view these practices as required.
painting activities must obtain
EPA certification and training,     Further, an EPA science advisory committee reported that limitations in the
and ensure that lead-safe work      Agency’s data for estimating intelligence quotient changes in children exposed to
practices are used for projects     lead dust during renovations would not adequately support a rigorous cost benefit
that disturb lead-based paint.      analysis. In our opinion, the data limitations in EPA’s analyses limit the
Federal agencies are required to    reliability of the rule’s stated cost and benefits. In public rulemaking documents,
analyze the costs and benefits      EPA acknowledged several of the limitations. EPA’s obligation under terms of a
of significant regulatory           settlement agreement to issue the Lead Rule by March 2008, the use of discretion
actions.                            in conducting the economic analysis, and EPA’s subsequent assumption that the
                                    costs of the rule were low limited EPA’s approach in estimating the cost and
                                    benefits of the rule.

                                     Recommendations/Agency Corrective Actions
For further information, contact
our Office of Congressional and
                                    We recommend that EPA reexamine the costs and benefits of the 2008 Lead Rule
Public Affairs at (202) 566-2391.
                                    and the 2010 amendment to determine whether the rule should be modified,
The full report is at:              streamlined, expanded, or repealed. We also recommend that EPA add a
www.epa.gov/oig/reports/2012/       disclaimer to its training program materials to communicate the differences
20120725-12-P-0600.pdf              between required and recommended work practices. In its response to the draft
                                    report, EPA disagreed with the first recommendation. EPA agreed with the
                                    second recommendation to clarify required work practices and made revisions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                           July 25, 2012

MEMORANDUM

SUBJECT:	 Review of Hotline Complaint Concerning Cost and Benefit Estimates for
          EPA’s Lead-Based Paint Rule
          Report No. 12-P-0600


FROM:          Arthur A. Elkins, Jr.

TO:	           Jim Jones
               Acting Assistant Administrator for Chemical Safety and Pollution Prevention


This is our report on the subject review conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. The recommendations are listed as unresolved with resolution efforts in
progress. Your response should include a corrective action plan for agreed-upon actions, including
actual or estimated milestone completion dates. Your response will be posted on the OIG’s public
website, along with our comments to your response. Your response should be provided in an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. Please e-mail your response to Carolyn Copper at copper.carolyn@epa.gov. If your
response contains data that you do not want to be released to the public, you should identify the data
for redaction. We have no objections to the further release of this report to the public.

If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov, or Patrick Milligan at (215) 814-2326 or
milligan.patrick@epa.gov.
Review of Hotline Complaint Concerning Cost and                                                                              12-P-0600
Benefit Estimates for EPA’s Lead-Based Paint Rule


                                   Table of Contents 


Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               4     


   2	    Some of the Data on Which EPA Based Its Cost and 

         Benefit Estimates for the Lead Rule Were Limited .........................................                                 5


                 Limitations in Cost Analysis.........................................................................              5

                 Limitations in Benefit Analysis .....................................................................              9

                 Conclusions .................................................................................................     10     

                 Recommendations ......................................................................................            11     

                 Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                         13 




Appendices
   A	    EPA’s Methodology for Calculating Costs and 

         Benefits of the Lead Rule ..................................................................................              14 


   B	    Agency Response to Draft Report and OIG Evaluation .................................                                      16 


   C	    Distribution ........................................................................................................     29 

                                              Chapter 1

                                               Introduction
Purpose
                  The U.S. Environmental Protection Agency (EPA), Office of Inspector General
                  (OIG), received a hotline complaint concerning EPA’s Lead; Renovation, Repair,
                  and Painting Rule (Lead Rule). The complainant questioned aspects of the rule.
                  Our objective was to evaluate how EPA determined the costs and benefits
                  associated with the Lead Rule. This encompasses the economic analyses for both
                  the 2008 final rule and its 2010 amendment.

Background

                  The 1992 Residential Lead-Based Paint Hazard Reduction Act established
                  Title IV of the Toxic Substances Control Act (TSCA). TSCA required EPA to
                  issue a rule by 1996 to regulate the lead hazards created from renovation work. In
                  2005, EPA was sued by environmental groups for failure to issue the Lead Rule
                  by 1996. In a January 2008 settlement agreement, EPA committed to issuing the
                  Lead Rule on or before March 31, 2008. In addition, under the Consolidated
                  Appropriations Act of 2008, the EPA Administrator was directed to finalize the
                  Lead Rule by March 31, 2008. EPA issued the final rule on April 22, 2008.

                  The purpose of the 2008 Lead Rule was to address lead-based paint hazards
                  created by renovation, repair, and painting activities that disturb lead-based paint
                  in target housing1 and child-occupied facilities.2 Under the Lead Rule, firms that
                  perform renovation, repair, or painting activities for compensation in buildings
                  covered by the regulation must be EPA certified, train at least one of their
                  employees as a certified renovator, use a certified renovator to train other workers
                  to perform renovation activities, and ensure that lead-safe work practices are used
                  for projects that disturb lead-based paint.

                  The 2008 Lead Rule also included an “opt-out” provision. The provision
                  established that Lead Rule training and work practice requirements were

1
  Target housing is defined in Section 401 of TSCA as any housing constructed before 1978, except housing for the
elderly or persons with disabilities (unless any child under age 6 resides or is expected to reside in such housing) or
any 0-bedroom dwelling.
2
  A child-occupied facility is defined under the rule as a building, or portion of a building, constructed prior to 1978,
visited regularly by the same child, under 6 years of age, on at least two different days within any week (Sunday
through Saturday period), provided that each day’s visit lasts at least 3 hours and the combined weekly visits last at
least 6 hours, and the combined annual visits last at least 60 hours. Child-occupied facilities may include, but are not
limited to, day care centers, preschools, and kindergarten classrooms. Child-occupied facilities may be located in
target housing or in public or commercial buildings. (Source: 40 C.F.R. Sec. 745.83)


12-P-0600                                                                                                              1
               exempted when a homeowner certifies that no children under age 6 or pregnant
               women occupy the residence, and the home is not a child-occupied facility. The
               opt-out provision did not apply to rental housing.

               In 2009, in response to lawsuits filed against the 2008 Lead Rule, EPA signed a
               settlement agreement with public interest groups to amend the rule. The 2010
               amendment removed the opt-out provision and imposed additional recordkeeping
               requirements on renovation firms.

               EPA’s Economic Analysis for the Lead Rule

               Office of Management and Budget (OMB) Circular A-4 provides guidance to
               federal agencies on the development of rulemaking and regulatory analysis as
               required under Executive Order 12866. EPA’s 2000 Guidelines for Preparing
               Economic Analyses explains that it uses the following three approaches to
               calculate the economic impacts of a rule before undertaking the rulemaking:

                      Benefit-cost analysis—calculates the social benefits and costs of a rule
                      Economic impact analysis—examines the gainers and losers of a rule
                      Equity assessment—addresses broad concerns such as changes in the
                       national distribution of income or wealth, and can address how policies
                       affect specific sub-populations, including disadvantaged or vulnerable
                       sub-populations.

               For the Lead Rule, the benefit-cost analysis contained detailed analysis of the costs
               to regulated entities of the specific work practices required by the federal rule.

               EPA estimated the number of renovation events covered per year, the costs to
               regulated entities in the first year and on an annualized basis for the first 50 years,
               and societal benefits for the 2008 Lead Rule. For the 2010 amendment, EPA
               estimated the number of events and the cost information for the events that would
               occur from removal of the opt-out provision. See appendix A for more
               information on EPA’s methodology for determining the costs and benefits.
               Table 1 summarizes the results of EPA’s benefit-cost analysis:

    Table 1: EPA’s cost and benefit estimates for the 2008 Lead Rule and additional costs and
    benefits of the 2010 amendment
                            No. of                               Cost to
                          renovation          Cost to           regulated
                            events          regulated          entities per
                           covered        entities, year 1   year, annualized       Benefits to society
     2008 Lead Rule        11.4 million      $758 million         $404 million     $681 million–$1.7 billion
     2010 amendment         7.3 million      $507 million         $295 million     $866 million–$3.1 billion
     Total                18.7 million     $1.265 billion        $699 million      $1.5 billion–$4.8 billion
    Source: EPA Economic Analyses for the 2008 Lead Rule and the 2010 amendment.




12-P-0600                                                                                                 2
                 Opportunities to Review the Lead Rule

                 In 2011, Executive Order 13563, Improving Regulation and Regulatory Review,
                 directed all federal agencies to develop plans for periodically reviewing existing
                 regulations to determine whether any should be modified, streamlined, expanded,
                 or repealed. In August 2011, EPA issued its final plan for conducting reviews of
                 rulemaking, Improving Our Regulations: A Preliminary Plan for Periodic
                 Retrospective Reviews of Existing Regulations. According to its plan, EPA would
                 review 35 rulemakings. Sixteen of the 35 rulemakings were considered “early
                 action” for which EPA intended to propose or finalize an action to modify,
                 streamline, expand, or repeal a regulation or related program. For 5 of those 35
                 rulemakings, 3 EPA compared cost estimates used in developing the rule with
                 actual costs after the rule had been implemented, to identify possible sources of
                 uncertainty in cost estimates and to look for systematic biases in cost estimates.
                 The 2008 Lead Rule and the 2010 amendment were not included in the scope of
                 EPA’s regulatory review activities under Executive Order 13563.

                 In March 2012, EPA released the interim report, Retrospective Study of the Costs
                 of EPA Regulations: An Interim Report of Five Case Studies, for review by the
                 Science Advisory Board Environmental Economics Advisory Committee. The
                 report examines the process and factors that affect the estimated costs of issuing
                 the five regulations. EPA’s position is that there are too few analyses after a
                 regulation is in place to draw conclusions regarding general tendencies to under-
                 or over-estimate costs. The insufficiency of data before and after implementation
                 of rules may have contributed to differences in cost and benefit analyses.

                 A second authority by which EPA can review rules is under Section 610 of the
                 Regulatory Flexibility Act of 1980, as amended by the Small Business Regulatory
                 Enforcement Fairness Act of 1996. The Regulatory Flexibility Act states that each
                 agency shall publish:

                         a plan for the periodic review of the rules issued by the agency
                         which have or will have a significant economic impact upon a
                         substantial number of small entities.... The purpose of the review
                         shall be to determine whether such rules should be continued
                         without change, or should be amended or rescinded, consistent
                         with the stated objectives of applicable statutes….


3
  The five rules included in this study are: (1) National Primary Drinking Water Regulations; Arsenic and
Clarifications to Compliance and New Source Contaminants Monitoring; (2) National Emission Standards for
Hazardous Air Pollutants for Source Category: Pulp and Paper Production; Effluent Limitations Guidelines,
Pretreatment Standards, and New Source Performance Standards: Pulp, Paper, and Paperboard Category;
(3) Revision of Standards of Performance for Nitrogen Oxide Emissions From New Fossil-Fuel Fired Steam
Generating Units; Revisions to Reporting Requirements for Standards of Performance for New Fossil-Fuel Fired
Steam Generating Units; (4) Emission Standards for Locomotives and Locomotive Engines; and (5) Methyl
Bromide Critical Use Nomination for Preplant Soil Use for Strawberry Fruit Grown in Open Fields (Submitted in
2003 for the 2006 Use Season).


12-P-0600                                                                                                       3
                The Regulatory Flexibility Act, as amended, directs the consideration of, among
                other things, the nature of complaints or comments received concerning the rule
                from the public; and the length of time since the rule has been evaluated or the
                degree to which technology, economic conditions, or other factors have changed
                in the area affected by the rule.

Scope and Methodology
                We conducted our evaluation from December 21, 2010, to February 13, 2012. We
                performed our work in accordance with generally accepted government auditing
                standards issued by the Comptroller General of the United States. Those standards
                require that we plan and perform the review to obtain sufficient, appropriate
                evidence to provide a reasonable basis for our findings and conclusions based on
                our review objectives. We believe that the evidence obtained provides a
                reasonable basis for our findings and conclusions based on our review objectives.

                The scope of our review included EPA’s April 22, 2008, Lead; Renovation,
                Repair, and Painting Program Rule; and the Rule’s May 6, 2010, amendment. To
                accomplish our objective and address the hotline complaint, we reviewed EPA
                rulemaking documents obtained from the http://www.regulations.gov website and
                from EPA. These documents included the April 22, 2008, Lead Rule and the
                May 6, 2010, amendment; the economic analyses for both the Lead Rule4 and its
                amendment,5 and the Agency’s 2008 and 2010 responses to public comments.
                The OIG did not examine whether EPA complied with all aspects of federal
                rulemaking guidance and procedures. We reviewed those aspects of rulemaking
                necessary to address the hotline complaint.

                We interviewed EPA staff in the Office of Chemical Safety and Pollution Prevention
                at headquarters, including the Director of Economics Exposure and Technology
                Division, the Director of Regulatory Coordination, and the economist responsible for
                developing the economic analyses. We also obtained information from the EPA
                contractor who performed the work practices survey for EPA’s 2008 Lead Rule.

                We reviewed EPA’s 2000 guidance for the preparation of economic analyses,
                OMB’s Circular A-4 rulemaking guidance, and the statutory requirements
                regarding the preparation of economic analyses. We reviewed EPA’s explanation
                in the economic analyses for how it calculated the cost and the benefits for both
                the Lead Rule and the amendment. We focused on EPA’s benefit-cost analysis for
                the 2008 rule and its 2010 amendment because it provided the estimated costs of
                specific rule requirements and estimates of certain rule benefits. We also reviewed
                other chapters of the 2008 economic analysis that discussed the economic impact
                analysis and the equity assessment.

4
  The Lead Rule: The Economic Analysis for the TSCA Lead Renovation, Repair, and Painting Program Final Rule

for Target Housing and Child-Occupied Facilities, March 2008. 

5
  The Amendment: The Economic Analysis for the TSCA Lead Renovation, Repair, and Painting Program Opt-out 

and Recordkeeping Proposed Rule for Target Housing and Child Occupied Facilities, October 2009.



12-P-0600                                                                                                   4
                                           Chapter 2

    Some of the Data on Which EPA Based Its Cost and 

     Benefit Estimates for the Lead Rule Were Limited 

                 EPA used limited data to develop its cost and benefit estimates for the 2008 Lead
                 Rule. The Agency used self-reported information from only nine businesses to
                 estimate the incremental work practice costs and benefits of the Lead Rule. EPA’s
                 contractor said it contacted a couple of hundred businesses to find nine who
                 would provide information. We believe this to be limited information. On the
                 basis of this limited information, EPA concluded that many lead-safe work
                 practices were already being used by renovation businesses and, therefore, the
                 costs of the Lead Rule were “relatively low.” Further, this conclusion appears to
                 have led EPA to exclude other potential costs from its analysis. In addition, the
                 Agency’s Clean Air Scientific Advisory Committee (CASAC)6 reported that
                 EPA’s data for estimating intelligence quotient (IQ) changes in children exposed
                 to lead dust during renovations would not adequately support a rigorous cost-
                 benefit analysis. We did not conclude that EPA violated policies or failed to
                 follow requirements in conducting its analysis, but was under pressure to issue the
                 rule and used its discretion in performing the economic analysis using some
                 limited data.

Limitations in Cost Analysis
                 In its economic analysis of the Lead Rule, EPA acknowledged that the survey data
                 that contributed to the basis of its cost estimate did not come from a statistically
                 valid survey, and there is considerable uncertainty associated with the work
                 practices identified through the survey. EPA’s initial determination that the costs of
                 the Lead Rule were relatively low appears to have contributed to successive
                 assumptions that other potential rule costs did not need to be considered.

                 EPA’s Incremental Cost Estimates for Lead-Safe Work Practices
                 Derived From a Survey of Nine Businesses

                 According to EPA, 323,147 businesses would be impacted by the Lead Rule. In
                 2007, an EPA contractor conducted a limited, non-random, survey of painting and
                 residential general contractors to identify those lead-safe renovation practices that
                 were already being used by renovation contractors. EPA would use that
                 information to estimate the incremental costs to comply with the new rule
                 requirements. An EPA manager said that under the Paperwork Reduction Act,
                 EPA could only survey nine businesses unless it submitted an application for an

6
 CASAC is a federal advisory committee that is chartered to provide scientific information and advice to the EPA
Administrator.


12-P-0600                                                                                                          5
                 exemption, also known as an Information Collection Request, to OMB. Another
                 EPA manager added that based on past experience, obtaining OMB approval for
                 an Information Collection Request and then conducting the survey could take up
                 to 2 years to complete, which would have greatly exceeded the time frame for
                 issuing the rule EPA agreed to in its settlement agreement. Consequently, EPA
                 elected to perform a limited survey of nine firms.

                 To determine the nine firms to survey, the EPA contractor that conducted the
                 survey stated that a “couple of hundred” businesses were contacted, and the first
                 nine businesses that agreed to participate in the survey became the survey
                 participants. EPA’s non-probability sample selection of the first nine firms that
                 would respond is not a sampling method that supports a determination that the
                 sample was representative of the more than 300,000 firms EPA acknowledged
                 would be impacted by the rule. EPA’s selection of the first nine firms that
                 responded represents a convenience sample. Convenience samples should not be
                 used to develop generalizations about the target population. Random samples,
                 when drawn properly, can be used to accurately estimate characteristics of the
                 target population such as, in this case, what lead-safe work practices were already
                 in use. These are basic and documented principles of survey research, as indicated
                 by OMB and others.7

                 To arrive at its incremental cost estimates for lead-safe work practices, EPA first
                 estimated the cost of each required work practice for several types and sizes of
                 renovation jobs. EPA then assessed the extent to which lead-safe work practices
                 were already being used by the nine survey respondents. The survey information
                 showed that, on average, more than 75 percent of the nine firms already used lead-
                 safe work practices, such as covering floors with taped-down plastic sheeting and
                 vacuuming surfaces in the work area. In its economic analysis of the Lead Rule,
                 EPA acknowledged that the survey data were not based on a statistically valid
                 survey and that there is considerable uncertainty associated with the work practices
                 identified through the survey. Nevertheless, EPA used the survey results to
                 establish the baseline for estimating the cost to comply with the work practices
                 required by the Lead Rule. Based on those results, EPA concluded that there would
                 be relatively low incremental costs associated with the rule because contractors
                 would need to make few changes from their current work practices to comply.

                 Some Opportunity Costs Excluded From EPA’s Analysis

                 EPA’s initial decision that the costs of the Lead Rule were relatively low appears to
                 have contributed to successive assumptions that other potential rule costs did not
                 need to be considered. For example, the Agency decided that it did not need to
                 quantify some opportunity costs associated with implementation of the Lead Rule.

7
 See OMB Guidance on Agency Survey and Statistical Information Collections,
http://www.whitehouse.gov/sites/default/files/omb/inforeg/pmc_survey_guidance_2006.pdf; and Introduction to
Sampling for Non-Statisticians, Safaa R. Amer, Senior Statistician, National Opinion Research Center, University of
Chicago, February 2011, http://www.amstat.org/sections/srms/IntroductiontoSamplingforNon-Statisticians.pdf.


12-P-0600                                                                                                        6
            Opportunity costs are the value of the goods and services lost by society resulting
            from resources being used to comply with and implement the rule. EPA’s 2000
            Guidelines for Preparing Economic Analyses states, in part, that the goal of a
            benefit-cost analysis is to determine the net change in social welfare brought about
            by a new environmental policy. When determining the cost impacts of the Lead
            Rule, EPA did not include estimates for three categories of opportunity costs:

                  Social welfare costs, which are increased consumer and producer prices
                   and legal and administrative costs
                  Transitional costs, such as unemployment, firms closing, and resource
                   shifts to other markets
                  Other indirect costs, which are changes in markets indirectly affected by
                   the rule

            In its response to public comments on both the rule and the amendment, EPA
            noted that the Lead Rule would not affect consumer options or the cost of
            renovations because it believed that contractors’ costs to comply with the Lead
            Rule would be relatively low. EPA concluded that the number of renovations
            would not change and, consequently, there would not be a loss of renovation jobs
            or an impact on transitional costs. EPA also told the OIG that it concluded there
            would be relatively few adverse affects on markets that are indirectly affected by
            the rule. However, we believe that the rule may affect consumer decisions on
            whether to have renovation work performed by a compliant contractor or whether
            to undertake the work at all. Therefore, some opportunity costs affecting
            consumer and supplier resources and potential unemployment should have been
            considered in estimating the costs.

            Additional Contractor Liability Insurance Costs Excluded From
            EPA’s Analysis

            In the economic analysis, EPA did not include the cost of contractors’ additional
            liability insurance in the cost of complying with the Lead Rule. EPA did not
            include insurance as a cost because the Lead Rule does not require contractors to
            purchase insurance. Also, according to EPA and OMB guidance, the cost of
            insurance is considered a “transfer” among parties. EPA rule-making staff said
            these transfers do not affect costs because premiums are paid to insurance
            companies that return the premiums to society when claims are submitted. They
            also said that this is how insurance costs are handled in EPA rulemakings, and
            that other federal agencies do the same.

            According to OMB guidance for Executive Order 12866, transfers should not be
            included in the estimates of benefits and costs of a regulation. Instead, they should
            be addressed as part of the regulation’s distributional effects (how both benefits and
            costs are distributed among subpopulations of particular concern). However, EPA
            did not address additional insurance costs in the Lead Rule’s distributional analysis
            (which comprises the economic impact analysis and the equity assessment).


12-P-0600                                                                                       7
            EPA believes that contractors’ use of lead-safe work practices would lessen their
            potential liability. Yet, according to public comments for the Lead Rule and its
            amendment, renovators listed additional liability insurance as a cost that firms
            would incur.

            Costs Associated with EPA-Recommended Work Practices Excluded
            From EPA’s Analysis

            We found that EPA presented or recommended additional work practices in a
            mandatory training program on how to comply with the Lead Rule. However,
            these work practices are not required by the rule and are not included in the rule’s
            costs to comply.

            EPA, in collaboration with the U.S. Department of Housing and Urban
            Development, developed the “Lead Safety for Renovation Repair and Painting”
            training course to train renovation, repair, and painting contractors on how to
            work safely in housing with lead-based paint. The instructor manual for the
            training course was issued in February 2009. The manual lists some Occupational
            Safety and Health Administration requirements for meeting the “Lead in
            Construction Standard,” and some U.S. Department of Housing and Urban
            Development requirements for meeting the “Lead-Safe Housing Rule.” Apart
            from these Occupational Safety and Health Administration and U.S. Department
            of Housing and Urban Development requirements, the training manual includes
            three categories of work practices:

                  Work practices “required” to comply with the Lead Rule
                  “Recommended” work practices
                  Work practices presented during the certification training that were not
                   labeled “required” or “recommended” (these are “other” work practices)

            EPA only included the activities and equipment that are designated “required” in
            its cost estimate for the Lead Rule.

            In our opinion, contractors may see little if any distinction between something
            EPA “requires” versus something it “recommends.” EPA has authority to penalize
            renovation firms that do not perform lead-safe renovations as required in the rule.
            Consequently, we believe that all the work practices presented in the EPA training
            are practices that contractors may implement and that may result in additional
            costs to business, although these practices were not accounted for in the rule. In
            addition, contractors may believe that they could be liable for not adequately
            protecting the homeowner or workers from exposure to lead if they do not
            perform a work practice that has been documented as “EPA recommended.”

            EPA is aware that some contractors have adopted some EPA-recommended and
            other work practices, and EPA acknowledges that the additional costs associated


12-P-0600                                                                                       8
                    with those practices are not included in its analysis. Examples of the
                    recommended and other work practices that EPA identifies in the training but
                    does not include in cost estimates are:

                            Attaching plastic sheeting to the exterior of the window
                            Using precautions such as baby wipes to ensure that all personnel, tools,
                             and other items are free of dust and debris
                            Removing toys and other items from the work area
                            Covering all play areas, including sandboxes
                            Using a shroud for HEPA8-filtered tools
                            Using a second smaller layer of protective sheeting with chemical
                             strippers
                            Cleaning tools at the end of the day
                            Washing hands each time workers leave the work area

Limitations in Benefit Analysis

                    In its economic analysis for the 2008 Lead Rule, EPA stated that the rule would
                    generate substantial benefits. However, EPA also acknowledged that it has limited
                    confidence in the stated benefits because it had not determined why the benefits
                    analyses contained unusual results.

                    EPA’s Clean Air Act Scientific Committee (CASAC) identified several issues
                    with EPA’s plan to analyze the estimated benefits from the rule. CASAC noted
                    that although the overall concepts in EPA’s approach were reasonable, CASAC
                    could not endorse the specific steps, procedures, and data analyses contained in
                    the Agency’s draft methodology document, which was used to develop estimates
                    for the benefits section of the Economic Analysis.

                    The benefits analysis is based on three main components: the dust study, blood
                    lead-IQ modeling, and benefits estimation. The November 2007 Revised Final
                    Report on Characterization of Dust Lead Levels after Renovation, Repair, and
                    Painting Activities (hereafter referred to as the dust study) was designed to
                    characterize dust lead levels during various renovation, repair, and painting
                    activities.

                    CASAC found that the dust study was reasonably well designed considering the
                    complexity of the problem, and that the report provided information not available
                    from any other source. CASAC noted that of particular interest was the impact of
                    specific work practices that would be required under the proposed rule. CASAC
                    also cited the dust study as providing input for the type of exposure data needed
                    for the draft Lead Rule. However, CASAC stated that the limited data included in
                    the dust study most likely rendered the study not statistically valid or nationally
                    representative.

8
    HEPA stands for high-efficiency particulate air.


12-P-0600                                                                                                9
                    Most of the structures used in the dust study were built prior to the 1930s, and the
                    primary estimate did not reflect changes over time in lead levels in paint. EPA
                    accounted for the variation in lead levels in paint over time in its sensitivity
                    analysis, which resulted in a 14 percent reduction in benefits. However, EPA did
                    not include this reduction when it calculated the estimated benefits for the Lead
                    Rule.

                    EPA’s estimation of benefits9 is based on the value of reduced lifetime earnings
                    due to IQ loss from exposures to children under the age of 6. EPA used its blood
                    lead–IQ modeling approach as part of the analysis to calculate the expected
                    benefits from the Lead Rule. EPA ran multiple exposure scenarios, changing key
                    variables such as the type of renovation job or combination of jobs, the age of the
                    child, workspace assumptions, and other factors. Under each of these scenarios,
                    EPA calculated the change in IQ points and weighed the results according to the
                    number of children exposed to a given scenario. Finally, EPA assigned a dollar
                    value to monetize the aggregate loss in IQ points.

                    CASAC found that the data were inadequate to support the proposed modeling
                    approach for estimating the IQ changes in children exposed during renovations.
                    Further, EPA’s benefits analysis identified that some results were unexpected; for
                    example, the modeling results showed that only using containment at a work site
                    would yield higher benefits than if the contractor also cleaned and verified that no
                    lead was present. In its analysis, EPA noted that these types of unreasonable
                    results are likely due to underlying data and modeling assumptions. EPA also
                    acknowledged that it did not investigate all possible data or modeling assumptions
                    to determine the cause of the inconsistent results. EPA acknowledged that more
                    representative data would have been desirable, but that the Agency had to proceed
                    with the best information available at that time.

Conclusions

                    EPA concluded that work practice costs for businesses to comply with the Lead
                    Rule were relatively low. This decision influenced other discretionary EPA actions
                    to exclude potential additional costs of the rule. In addition, EPA’s decision to
                    include non-mandatory work practices in official training programs may result in
                    additional unaccounted-for costs that would be incurred by businesses that attempt
                    to comply with EPA training guidance. Sound data on the rule’s benefits were also
                    not available at the time of the rulemaking, and this limitation was known to EPA
                    and its scientific advisory committee. However, EPA went forward with the rule
                    because its benefit-cost analysis indicated that the rule generated substantial
                    benefits, and because EPA was legally obligated to issue the rule.




9
    In the Executive Summary of the 2008 rule, EPA cited other health benefits such as cardiovascular benefits.


12-P-0600                                                                                                         10
            We have identified only a few aspects of EPA’s complex benefit-cost analysis
            that are limited. However, we believe these aspects limit the reliability of EPA’s
            estimates of the rule’s costs and benefits to society. The Administration’s 2011
            Executive Order and Section 610 of the Regulatory Flexibility Act provide EPA
            an opportunity to review the Lead Rule to determine whether it should be
            modified, streamlined, expanded, or repealed in light of the known limitations in
            the rule’s underlying cost and benefit estimates. OMB seeks to create a culture of
            retrospective analysis in which existing rules (whether issued in the recent past or
            decades ago) are subject to assessment and continuing evaluation, with public
            input.

Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1.	 Consistent with a retrospective and flexible EPA regulatory culture,
                   reexamine the estimated costs and benefits of the 2008 Lead Rule and the
                   2010 amendment to determine whether the rule should be modified,
                   streamlined, expanded, or repealed.

               2.	 Add a disclaimer to the February 2009 instructor manual, Lead Safety for
                   Renovation, Repair, and Painting, to communicate the difference between
                   required and recommended work practices. The disclaimer should state
                   that EPA did not consider the costs and benefits of any non-required work
                   practices in developing the rule and that required work practices in the
                   training manual must be performed to comply with the law.

Agency Response and OIG Evaluation

            We received comments from the Acting Assistant Administrator for Chemical
            Safety and Pollution Prevention. For recommendation 1, the Agency responded
            that the OIG’s draft report contains a number of inaccurate statements that
            contributed to inappropriate conclusions and recommendations. As a result, the
            Agency strongly disagrees with the first recommendation of the report, that the
            office re-examine the costs and benefits of the 2008 rule and 2010 amendments.

            The Inspector General met with the Acting Assistant Administrator for Chemical
            Safety and Pollution Prevention on May 25, 2012, to discuss the Office of
            Chemical Safety and Pollution Prevention’s response to the draft report. The
            Acting Assistant Administrator said his office did not agree with
            recommendation 1 because the office did not believe it was cost effective to take a
            retrospective look at the economic analysis for the Lead Rule because, even if the
            cost estimates were understated, the benefits estimate would still significantly
            outweigh the costs. In the written response to the draft report, the Agency stated
            that its economic analysis was appropriate to support decisions made by Agency


12-P-0600                                                                                     11
            officials responsible for the lead-based paint rulemaking, was conducted
            according to Agency guidelines, was subject to public comment, and was cleared
            by OMB as complying with the requirements of Executive Order 12866.

            We agree that the economic analysis was conducted according to Agency
            guidelines, was subject to public comment, and was cleared by OMB as
            complying with the requirements of Executive Order 12866. However, this does
            not mean that the economic analysis was without limitations. It appears that in
            reviewing and responding to our report, EPA has confused OIG’s findings about
            limitations in the Agency’s economic and benefits analysis as meaning that the
            Agency’s analysis and rulemaking actions violated policies or guidance. The OIG
            did not find or state this. The purpose of this OIG hotline review was to evaluate
            how EPA determined the costs and benefits associated with the Lead Rule. Our
            evaluation identified limitations in EPA’s analysis.

            EPA’s approach in conducting its analysis for this rule was constrained by time
            pressure and mandated deadlines for performance, which resulted in reliance on
            limited data to draw conclusions about the rule’s costs and benefits. OMB reports
            indicate that reliance on limited data is not necessarily uncommon in the federal
            rulemaking analysis. We maintain our position on recommendation 1 that EPA
            reexamine the costs and benefits of the rule given the known and disclosed
            uncertainties and limitations. Our recommendation aligns with recently
            established federal government requirements to conduct retrospective analysis of
            federal agency rules. In addition, our recommendation aligns with requirements of
            Section 610 of the Regulatory Flexibility Act of 1980, as amended by the Small
            Business Regulatory Enforcement Fairness Act of 1996. In the final report,
            recommendation 1 is designated as unresolved with resolution efforts in progress.

            For recommendation 2, the Office of Chemical Safety and Pollution Prevention
            agreed that it is important for renovators to clearly understand what practices are
            required by the Renovation, Repair, and Painting Rule. The office stated that, in
            part due to feedback from renovators and training providers, EPA revised the
            Lead Safety for Renovation, Repair and Painting instructor manual in October
            2011 to clarify the distinction of required versus recommended work practices.

            EPA’s revisions to the training manual occurred after we notified the Agency of
            this issue and provided it with a draft recommendation on September 1, 2011. In
            its 90-day response to the final report, EPA should describe the specific manual
            revisions they implemented. This will allow the OIG to determine whether the
            revisions to the training manual meet the intent of the recommendation. In the
            final report, recommendation 2 is designated as unresolved with resolution efforts
            in progress.




12-P-0600                                                                                     12
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.   Page                                                                                                 Completion   Claimed    Agreed To
    No.     No.                          Subject                        Status1        Action Official             Date      Amount      Amount

     1       11    Consistent with a retrospective and flexible EPA        U      Assistant Administrator for
                   regulatory culture, reexamine the estimated costs                Chemical Safety and
                   and benefits of the 2008 Lead Rule and the 2010                  Pollution Prevention
                   amendment to determine whether the rule should
                   be modified, streamlined, expanded, or repealed.

     2       11    Add a disclaimer to the February 2009 instructor        U      Assistant Administrator for
                   manual, Lead Safety for Renovation, Repair, and                  Chemical Safety and
                   Painting, to communicate the difference between                  Pollution Prevention
                   required and recommended work practices. The
                   disclaimer should state that EPA did not consider
                   the costs and benefits of any non-required work
                   practices in developing the rule and that required
                   work practices in the training manual must be
                   performed to comply with the law.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




12-P-0600                                                                                                                                     13
                                                                                                        Appendix A

                       EPA’s Methodology for Calculating 

                       Costs and Benefits of the Lead Rule 

Cost Methodology

EPA divided the costs associated with the regulatory impact of the 2008 Lead Rule into four
categories for the purposes of the economic analysis: (1) work practice costs, (2) training costs,
(3) certification costs (which include the firm’s paperwork burden and EPA administrative and
enforcement costs), and (4) pre-renovation education costs. EPA’s general approach was to first
estimate the number of affected activities or entities, and then estimate the incremental
regulatory cost per activity or entity affected. Finally, the incremental costs and the number of
affected activities and entities were combined to estimate the total costs. EPA calculated the
costs, benefits, and small-entity10 impacts assuming a 75 percent compliance rate with the rule’s
requirements. The analysis first estimates the total costs associated with the first 4 years of
regulation, and then extrapolates to the costs of the regulation over a 50-year period, estimated
with 3 percent and 7 percent discount rates.

In calculating the cost for the 2010 amendment, the change in the costs associated with work
practices, training, and certification were all attributable to the elimination of the opt-out
provision, which extends the 2008 Lead Rule requirements to additional housing units. In
addition to the work practice costs associated with the renovation, repair, and painting events in
these housing units, this change is expected to result in more individuals and firms seeking
training and certification. The fourth category of analysis for the amendment—recordkeeping
checklist provision costs—applies to all housing units regulated under the 2008 Lead Rule as
well as the additional housing units that would no longer be eligible for the opt-out provision.
EPA’s general approach for estimating the costs for the 2010 amendment are the same as for the
2008 rule.

Benefit Methodology

The benefits for the 2008 Lead Rule are a result of the reduction in adverse health effects due to
decreased exposure to lead dust. There are five primary steps in estimating the adverse health
effects associated with renovation, repair, and painting projects:

       	 Mapping renovation, repair, and painting activities into dust study activities and then
          generating the universe of renovation, repair, and paint exposure scenarios for which IQ
          change will be estimated.
       	 Estimating the child-specific IQ change per each renovation, repair, and paint exposure
          scenario generated in step 1, while taking into account age of the child, workspace
          access, and vintage of the building.
       	 Defining the current work practice baseline (cleaning and containment).

10
     Small entities are small businesses, small governmental jurisdictions, and/or small not-for-profit organizations.


12-P-0600                                                                                                                14
        Scaling up the incremental IQ change values for each regulatory option to capture the
         population of children affected by all renovation, repair, and paint events disturbing lead-
         based paint.
        Multiplying the population-based IQ change by the value of an IQ point. The estimated
         value of an IQ point is $12,953 (2005 dollars).11

The 2010 economic analysis12 benefits calculation for children under the age of 6 were based on
avoided losses in expected earnings due to drop, and the calculations for adults were based on
the avoided medical costs (or other proxies for willingness to pay) for hypertension, coronary
heart disease, stroke, and the resulting incidence of deaths.

EPA calculated benefits numbers for several groups of individuals protected by removing the
opt-out provision. The first step in calculating the benefits for the 2010 analysis was to estimate
the number of individuals who would be protected by eliminating the opt-out provision. EPA did
this by estimating the number of affected housing units. Next, EPA estimated the number of
occupants in the affected households. Then, EPA estimated the number of individuals protected
as the number of individuals who reside where lead-based paint is disturbed during renovation,
repair, and painting. Finally, EPA multiplied the number of individuals by the average benefit
per individual.




11
   This estimated value is derived from coefficients provided by Salkever, D.S., 1995. Updated estimates of earnings
benefits from reduced exposure of children to environmental lead. Environmental Research 70 (1): 1–6.
12
   The economic analysis for the 2010 amendment titled, “Economic Analysis for the TSCA Lead Renovation,
Repair, and Painting Program Opt-out and Recordkeeping Proposed Rule for Target Housing and Child-Occupied
Facilities,” was completed in October 2009.


12-P-0600                                                                                                        15
                                                                                  Appendix B

                  Agency Response to Draft Report
                        and OIG Evaluation



                                         March 27 2012

MEMORANDUM

SUBJECT:	 Response to OIG Hotline Complaint Concerning EPA's Lead Based Paint Rule,
          Assignment OPE-FY11-006

FROM:	         James J. Jones, Acting Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

TO:	           Arthur A. Elkins, Jr.
               Inspector General

This memorandum is in response to the Office of Inspector General's (OIG) February 13, 2012,
Draft Report entitled "Review of Hotline Complaint Concerning EPA's Lead-Based Paint Rule
(Project No. 2011-027)". I appreciate the opportunity for the Office of Chemical Safety and
Pollution Prevention (OCSPP) to comment on this Draft Report.

Unfortunately, the Draft Report contains a number of inaccurate statements which contribute to
inappropriate conclusions and recommendations. As a result, I strongly disagree with the first
recommendation of the report, that the Office re-examine the costs and benefits of the 2008 rule
and 2010 amendments.

The economic analysis was appropriate to support decisions made by Agency officials
responsible for the Lead-Based Paint Rulemaking, was conducted according to Agency
guidelines, was subject to public comment, and was cleared by the Office of Management and
Budget as complying with the requirements of EO 12866.




12-P-0600                                                                                      16
OIG Response 1: The OIG has carefully reviewed the Agency’s response. We agree that the
economic analysis was generally conducted according to Agency guidelines; was subject to
public comment; and, according to EPA, was cleared by OMB as complying with the
requirements of Executive Order 12866. However, this does not mean that the economic analysis
was without limitations. It appears that in reviewing and responding to our report, EPA has
confused OIG’s findings about limitations in the Agency’s economic and benefits analysis as
meaning that the Agency’s analysis and rulemaking actions violated policies or guidance.
However, OIG did not find or state this. The purpose of this OIG hotline review was to evaluate
how EPA determined the costs and benefits associated with the Lead Rule. Our evaluation
identified limitations in EPA’s analysis. We recognize that EPA’s approach in conducting its
analysis for this rule was constrained by time pressure and mandated deadlines for performance.
We maintain that on the basis of a limited survey, EPA concluded that work practice costs for
business to comply with the Lead Rule were relatively low. This decision influenced other
discretionary EPA actions to exclude potential additional costs of the rule. EPA acknowledged
that the survey data contributed to the basis of its cost estimate and that the data did not come
from a statistically valid survey, and that there is considerable uncertainty associated with the
work practices identified through the survey. Therefore, we conclude that EPA’s initial
determination that the costs of the Lead Rule were relatively low appears to have contributed to
successive assumptions that other potential rule costs did not need to be considered.

According to OMB’s “Draft 2012 Report to Congress on the Benefits and Costs of Federal
Regulations and Unfunded Mandates on State, Local, and Tribal Entities,” quantification of the
costs and benefits of some rules is highly speculative, often because information does not exist.
There are, at times, real and immovable obstacles to federal agencies’ abilities to obtain the data
necessary to make non-speculative decisions about the costs and benefits of federal rules. OMB’s
report states that, “It is not unusual for agencies to issue rules with at least a degree of
uncertainty about one or another provision.” Consequently, as described by OMB, Executive
Order 13563 (Improving Regulation and Regulatory Review), established requirements for
federal agencies to conduct ‘retrospective’ analysis of significant federal rules “to determine
whether any such regulations should be modified, streamlined, expanded, or repealed so as to
make the agency’s regulatory program more effective or less burdensome in achieving the
regulatory objectives.” OMB seeks to create a culture of retrospective analysis in which existing
rules (whether issued in the very recent past or decades ago) are subject to assessment and
continuing evaluation, with public input.OMB recommends that retrospective analysis should
become a routine part of agency rulemaking and that formal mechanisms should be maintained
to regularly reevaluate rules that may be unjustified, excessive, insufficient, or unduly complex.

We maintain our position on our first recommendation that EPA reexamine the costs and benefits
of the rule, given the known and disclosed uncertainties and limitations. Our recommendation
aligns with recently established federal government requirements to conduct retrospective
analysis of federal agency rules. In addition, our recommendation aligns with requirements of
Section 610 of the Regulatory Flexibility Act of 1980, as amended by the Small Business


                                           -continued-




12-P-0600                                                                                       17
Regulatory Enforcement Fairness Act of 1996. The Regulatory Flexibility Act states that each
agency shall publish:

       a plan for the periodic review of the rules issued by the agency which have or will
       have a significant economic impact upon a substantial number of small entities....
       The purpose of the review shall be to determine whether such rules should be
       continued without change, or should be amended or rescinded, consistent with the
       stated objectives of applicable statutes….

The Regulatory Flexibility Act, as amended, directs the consideration of, among other things, the
nature of complaints or comments received concerning the rule from the public, and the length of
time since the rule has been evaluated or the degree to which technology, economic conditions,
or other factors have changed in the area affected by the rule.

Additional clarifications are discussed in more detail in the attached document.

The Draft Report's second recommendation is that OCSPP should add a disclaimer to the
instructor manual communicating the difference between required and recommended work
practices. The instructor manual is designed to present Training Providers with tools to
communicate the necessity of performing required work practices in order to comply with the
regulations. Information related to the economic analysis is not appropriate for such
communication. However, we agree that it is important for renovators to clearly understand
what practices are required by the Renovation, Repair, and Painting Rule. In part due to feedback
from renovators and training providers, EPA revised the Lead Safety for Renovation, Repair and
Painting instructor manual in October 2011 to clarify the distinction of required versus
recommended work practices.

OIG Response 2: EPA’s revisions to the training manual occurred after we notified the Agency
of this issue and provided EPA with a draft recommendation on September 1, 2011. In its 90-day
response to the final report, EPA should describe the specific manual revisions it implemented.
This will allow the OIG to determine whether the revisions to the training manual meet the intent
of the recommendation. In the final report, this recommendation is designated as unresolved with
resolution efforts in progress.

Thank you again for the opportunity to comment on this Draft Report. I look forward to working
with your office as the report is finalized. If you have questions, please feel free to contact me, or
to have your staff contact Janet Weiner of my staff at (202) 564-2309.




12-P-0600                                                                                          18
                        OCSPP RESPONSE TO DRAFT REPORT 

                               PROJECT NO. 2011-027 

                                            March 26, 2012


This document summarizes OCSPP's position regarding the Draft Report entitled "Review of
Hotline Complaint Concerning EPA's Lead Based Paint Rule," dated February 13,2012. In
summary, EPA believes the recommendations in the Draft Report to be inappropriate, and
disagrees that the evidence provides a reasonable basis for OIG's findings and conclusions. For
the convenience of the reader, the structure of our comments tracks the format of the Draft
Report.

OIG Response 3: OIG has carefully reviewed EPA’s response and maintains its position on the
two report recommendations. Despite its statement directly above, EPA agrees with our second
recommendation and reports that it has taken actions to implement it. Generally accepted
government auditing standards require that we plan and perform our work to provide a
reasonable basis for our findings and conclusions, based on our review objectives. This
determination has been established by trained and knowledgeable OIG professional audit staff.

Our review objective, based on an OIG hotline complaint, was to evaluate how EPA determined
the costs and benefits of the Lead Rule. This encompasses the economic analyses for both the
2008 final rule and its 2010 amendment. Our evaluation identified known and documented
limitations. It also identified current federal requirements for retrospective analysis of federal
rules which provide a reasonable and appropriate means for EPA to determine whether the
known limitations in their economic and benefits analysis indicate the need to modify,
streamline, expand, or repeal the Lead Rule to make it more effective or less burdensome. In
addition, our evaluation identifies a federal requirement under Section 610 of the Regulatory
Flexibility Act of 1980, as amended by the Small Business Regulatory Enforcement Fairness Act
of 1996. The Regulatory Flexibility Act requires that each agency publish a plan for the periodic
review of the rules issued by the agency which have or will have a significant economic impact
upon a substantial number of small entities. The purpose of the review shall be to determine
whether such rules should be continued without change, or should be amended or rescinded,
consistent with the stated objectives of applicable statutes. Fulfilling the requirements of the
Regulatory Flexibility Act is also a reasonable and appropriate means EPA can use to address the
OIG’s first recommendation.

SECTION BY SECTION ANALYSIS:


Limitations in Cost Analysis

EPA's Incremental Cost Estimates for Lead-Sate Work Practices Derived from a Survey of Nine
Businesses

The Draft Report states that the sample size of the 2007 survey limited EPA's ability to
adequately estimate the costs and benefits of the Lead Rule under Executive Order 12866.



12-P-0600                                                                                         19
 EPA disagrees. The Agency conducted a sensitivity analysis to analyze the impact of possible
over reporting or under-reporting of workplace practices. EPA performed a sensitivity analysis in
the 2008 Economic Analysis, estimating benefits if work practices required by the rule were used
in the baseline with 50 percent greater or lesser frequency than indicated by the survey of 9
renovators. Because a decrease in the assumed baseline level of work practice use increases
benefits and costs by about the same amount, the net benefits estimate changed by only 5 percent
and were still approximately $1.2 billion per year. This argues against the proposition that a
larger survey would have changed the conclusion that the benefits of the rule significantly
outweigh the costs.

OIG Response 4: The OIG draft report does not state that the sample size of the 2007 survey
limited EPA’s ability to adequately estimate the costs and benefits of the Lead Rule under
Executive Order 12866. The OIG draft report stated that EPA’s assumption that the costs of the
rule were low affected its decisions and limited its approach in estimating the cost of the rule.

The OIG draft report does not speculate the results of a larger survey compared to the results of a
limited survey of nine participants. However, in discussions with the OIG, EPA managers
acknowledged their preference for a large survey over a small survey. The draft report
recognizes that EPA acknowledged the limitations of a survey of nine including considerable
uncertainty associated with the work practices identified through the survey. With such a limited
survey, EPA did not know whether a representative sample of renovation firms was being
surveyed. The sensitivity analysis provides useful information on the uncertainties in the cost and
benefit analysis. However, it does not address the assumptions and limitations associated with
conducting a non-representative survey.

Footnote 1:
The Draft Report fails to mention that EPA tried unsuccessfully to supplement the survey it
conducted for the proposed rule by asking for additional information from the industry. In the
preamble to the 2006 proposed rule (71 Federal Register 1621) EPA specifically requested
comments and supporting information on the extent to which renovators already used the work
practices EPA was proposing to require. However, EPA did not receive data about these
activities in response to this request. Because of the failure of this request to generate useful
information, EPA decided to perform another survey for the final rule.

OIG Response 5: EPA officials informed us that the Agency was under time constraints to issue
the final rule because of a January 2008 settlement agreement to issue the Lead Rule on or before
March 31, 2008. The OIG recognizes that agencies can encounter obstacles to obtaining
necessary and quality information for rulemakings. However, with new federal requirements to
conduct retrospective analysis of existing rules, and existing requirements under the Regulatory
Flexibility Act, opportunities exist to assess the possible implications that data limitations have
for effective and fair federal rules.

The Draft Report contends that EPA's survey was limited because it did not incorporate
questions such as the number of employees or annual revenues of the businesses, or what portion
of the business was accounted for by renovations on pre-1978 housing.



12-P-0600                                                                                           20
EPA disagrees, and is not aware of any evidence that the number of employees or the annual
revenues of renovators differentially influence the use of containment and cleaning practices.
OIG has provided no factual support for its position that this information is relevant to
determining whether the surveyed firms were representative of the industry. Furthermore, the
survey specifically asked about work practices in pre-1978 housing and COFs. EPA is not aware
of any evidence that the baseline work practices used in pre-1978 houses and COFs (which may
contain lead-based paint) systematically differ from the baseline work practices used in houses
and COFs built after 1978 (when lead-containing paint was banned).

OIG Response 6: The draft report has been clarified to facilitate understanding of the
fundamental limitations of the survey. As EPA itself has acknowledged, its survey was not
statistically valid. EPA selected a non-probability, convenience sample of nine renovation firms,
from more than 300,000, to determine the lead-safe work practices already being used. However,
non-random, convenience samples cannot be assumed to be representative of the characteristics
of the population of renovation firms.

Some Opportunity Costs Excluded From EPA's Analysis:

The Draft Report asserts that EPA's survey results were responsible for the conclusion that the
costs of the RRP program were relatively low, and thus that other potential costs did not need to
be considered.

EPA disagrees with this assertion. In fact, EPA's conclusion that the rule's requirements are
relatively inexpensive applies irrespective of the assumptions about baseline practices. The cost
of the common work practices for the various types of model jobs in the economic analysis
varied from $35 to $400 per job if the renovator did not perform any cleaning or containment in
the baseline, and EPA considers these costs to be low, based on their contribution to the total
cost of a renovation project. To put these costs into context, a study by the Joint Center for
Housing Studies of Harvard University on Foundations for Future Growth in the Remodeling
Industry found that the average cost of professional home improvement job was $9,620. While
there can be considerable differences from one job to another, the typical cost of compliance
with the RRP rule is small compared to the rest of the cost of a renovation, even if there was no
cleaning or containment in the baseline. These costs are not expected to impact the overall costs
of renovations.

OIG Response 7: The draft report did not make any assertions about the RRP (Renovation,
Repair, and Paint) program as a whole. The objective of our work was to evaluate how EPA
determined the costs and benefits associated with the Lead Rule. The draft report also did not
assert that EPA’s survey results were responsible for the conclusion that the costs of the RRP
program were relatively low. The draft report describes the impact of the survey results in a more
specific aspect—estimating the cost to comply with the work practices required by the Lead
Rule. There are several other cost components that EPA assessed in the rule’s economic analysis,
such as training costs, certification, and pre-renovation education costs.




12-P-0600                                                                                       21
The Draft Report states that EPA did not include estimates for three categories of costs: social
welfare costs, transition costs, and other indirect costs.

EPA notes that the Draft Report does not present any data indicating that these costs are of
significance for the RRP rule. For example, the Report states that EPA did not include
administrative costs, but does not specify what specific administrative costs would be incurred
that were not already included in EPA's analysis. If such costs even exist in this instance, the
Draft Report has not demonstrated that their magnitude is sufficient to be relevant.

OIG Response 8: Our objective was to evaluate how EPA determined the costs and benefits
associated with the Lead Rule based on a hotline complaint. OIG performs oversight of EPA
activities and operations and, consistent with our objective, we are not responsible for providing
the Agency with industry data. It is EPA’s responsibility to demonstrate why there would be no
impact on the three categories of costs: social welfare costs, transition costs, and other indirect
costs.

EPA's Guidelines for Preparing Economic Analyses identifies an array of costs that might be
relevant to analyze, at the discretion of the economist. EPA concluded that it was not necessary
to attempt to quantify all of these costs, as EPA either did not believe that such costs would be
incurred in this situation or that they were sizable enough to make a significant difference in the
conclusions drawn from the analysis.

OIG Response 9: The OIG agrees that according to EPA’s 2000 Guidelines for Preparing
Economic Analyses, the Agency has discretion for identifying those costs that are relevant to
analyze when issuing a rule. We also agree that EPA used its discretion to conclude that it was
not necessary to attempt to quantify all of the costs because it did not believe that such costs
would be incurred or were sizable enough to make a significant difference in the conclusions
drawn from the analysis. However, EPA based part of its conclusion on a limited survey, of
which the results had considerable uncertainty associated with the estimated cost of RRP work
practices. We believe that new federal requirements to conduct retrospective analysis of existing
rules, and existing requirements under the Regulatory Flexibility Act, provide opportunities to
examine the implications of the use of Agency discretion and, where appropriate, make changes
to achieve effective and fair federal rules.

Even where an effect may occur, it was not always possible to quantify it, as the necessary data
were not available to make quantitative estimates for some effects. However, EPA did consider
and address issues qualitatively where appropriate. For example, EPA's Economic Analysis
qualitatively addressed the likely effects of the regulation on prices and social welfare. This is in
accordance with Executive Order 12866 and EPA and OMB guidance, all of which acknowledge
the role of qualitative information in economic analyses.




12-P-0600                                                                                          22
OIG Response 10: The OIG acknowledges that it may not always be possible to quantify every
effect of a rule, and that un-quantified effects are therefore qualified when appropriate.
According to OMB guidance for Executive Order 12866, transfers such as insurance should not
be included in the estimates of benefits and costs of a regulation. Instead, they should be
addressed as part of the regulation’s distributional effects (how both benefits and costs are
distributed among subpopulations of particular concern). According to public comments for the
Lead Rule and its amendment, renovators listed additional liability insurance as a cost firms
would incur.

The Draft Report states that EPA did not estimate the costs to markets that are indirectly affected
by the rule.

EPA disagrees that such estimates are appropriate. The Draft Report does not identify what
markets other than the renovation, repair, and painting industry might be affected, or whether the
magnitude (if any) of such costs justifies quantification. Moreover, EPA's Guidelines for
Preparing Economic Analyses state that:

       "First, in most cases, the social costs of an environmental policy or other action can be
       measured with sufficient accuracy by limiting the analysis to the directly affected
       markets. This allows the analysis to focus on the sectors that must comply with a policy.
       In these cases, the disturbances that ripple outward from the directly affected markets to
       numerous other markets should have a minimal effect on the estimation of social costs.
       Second, a conventional partial equilibrium depiction and modeling of the directly
       affected markets will often be sufficient to measure social costs."

For this rule, the EPA concluded that the social costs can be measured with sufficient accuracy
by limiting the modeling to the directly affected market. The professional judgment of EPA's
staff was that the level and type of analysis it performed for the RRP rule was appropriate for the
issues at hand.

Footnote 2: In discussing benefits analyses, the Guidelines for Preparing Economic Analyses
provide the following implementation principles:
" Focus on key issues. Resources should be focused on benefit categories that are likely to
influence policy decisions. To use time and resources effectively, analysts must weigh the costs
of conducting additional analysis against the usefulness of the additional information provided
for decision-making ... Additional data collection may not be warranted because it is unlikely to
lead to significant changes in the conclusions of the analysis ... Likewise, some categories of
benefits may not be assessed either because they are expected to be small or because the costs or
time needed to quantify them far exceed the time or resource levels appropriate for analysis of
the particular policy ... The EA Guidelines are designed to provide assistance to analysts in the
economic analysis of environmental policies, but they do not provide a rigid blueprint or a
"cookbook" for all policy assessments. The most productive and illuminating approaches for
particular situations will depend on a variety of case-specific factors and will require
professional judgment to apply."




12-P-0600                                                                                        23
OIG Response 11: As stated previously, we agree that the Agency can use its professional
judgment, or discretion, in identifying what markets would be affected and the analyses it should
perform as part of issuing a rule. However, EPA based part of its professional judgment on the
results of a limited survey that had considerable uncertainty associated with the estimated cost of
RRP work practices. EPA’s initial determination that the costs of the Lead Rule were relatively
low appears to have contributed to successive assumptions that other potential rule costs did not
need to be considered. We believe new federal requirements to conduct retrospective analysis of
existing rules, and existing requirements under the Regulatory Flexibility Act, provide
opportunities to examine the implications of the use of Agency discretion and, where
appropriate, make changes to achieve effective and fair federal rules. In the current regulatory
environment, EPA can do more to assess the effectiveness of its discretionary rulemaking
actions.

Additional Contractor Liability Insurance Costs Excluded From EPA's Analysis.

The Draft Report asserts that EPA's economic analysis is limited because it did not include
contractors' liability insurance costs.

EPA disagrees. The RRP program reduces the renovation industry's potential liability because
complying with the rule reduces exposure to lead dust and decreases the incidence of elevated
blood levels. Because the RRP program reduces lead exposure from renovations and establishes
a clear standard of care for renovation firms, it decreases liability for renovators. The RRP rule
does not require contractors to purchase insurance. But the RRP rule can be expected to result in
insurance becoming more readily available and less expensive for those renovators that
voluntarily choose to purchase insurance coverage for lead pollution.

A 1994 General Accounting Office (GAO) report entitled "Lead Based Paint Hazards:
Abatement Standards Are Needed to Ensure Availability of Insurance" (RCED-94- 231), written
before EPA had published lead hazard standards or lead abatement regulations, concluded that
the lack of lead abatement standards was one of the primary reasons that limited the availability
of insurance for abatement firms. GAO concluded that lead abatement insurance would be easier
to obtain and less expensive once EPA published standards for lead abatement. Similarly, EPA's
RRP rule should make insurance more readily available and less expensive for those renovators
who choose to purchase it.

OIG Response 12: The draft report states that in EPA’s economic analysis, the Agency did not
include the cost of contractors’ additional liability insurance in the cost of complying with the
Lead Rule.

Some of the public comments on the RRP Rule included renovation firms claiming that there
would be increased costs for liability insurance. We recognize that the renovation firms are one
of many viewpoints EPA receives as part of addressing public comments. Particularly because
renovation firms are a directly affected market, EPA had the opportunity to evaluate whether
there was any merit to the claim of increased costs for liability insurance.

                                           -continued-



12-P-0600                                                                                        24
According to OMB guidance for Executive Order 12866, insurance should be addressed as part
of the regulation’s distributional effects. However, EPA did not address additional insurance
costs in the analysis. Instead, as permitted by EPA’s 2000 Guidelines for Preparing Economic
Analyses, the Agency used its discretion and decided not to analyze the potential impacts on
liability insurance. With regard to the U.S. Government Accountability Office report, the
referenced report is 18 years old and we do not believe it is relevant for insurance markets today.
We continue to emphasize in our response that new federal requirements to conduct retrospective
analysis of existing rules, and existing requirements under the Regulatory Flexibility Act,
provide opportunities to examine the implications of the use of Agency discretion and, where
appropriate, make changes to achieve effective and fair federal rules. In the current regulatory
environment, EPA can do more to assess the effectiveness of its discretionary rulemaking
actions.


Costs Associated With EPA Recommended Work Practices Excluded From EPA's Analysis

The Draft Report contends that excluding recommended work practices from the cost analysis is
a limitation of that analysis.

EPA disagrees. Since the recommended work practices are not part of the rule, by definition they
cannot affect the reliability of EPA's estimates of the rule's costs and benefits to society and are
unrelated to the Economic Analysis. While OIG may believe that contractors may see little
distinction between recommendations and requirements, not only is there no evidence to suggest
it is true, accepted methodologies for regulatory analysis do not support estimating regulatory
impacts from voluntary (recommended) activities. Moreover, the discussion in the OIG's draft
report about EPA's authority to penalize firms may provide the mistaken impression that EPA
can take action against firms that do not follow recommended work practices. However, EPA
can only penalize renovation firms for failure to perform the required work practices described in
the Code of Federal Regulations. EPA cannot take enforcement actions against firms that do not
perform recommended work practices.

OIG Response 13: The OIG did not state in the draft report that there are costs for conducting
recommended work practices that were not included in the cost estimate but should have been.
Unfortunately, EPA appears to have misinterpreted the OIG’s point of needing to clarify which
work practices are required compared to the practices that are recommended. The OIG does not
state that the costs associated with recommended work practices should have been included in
the cost of complying with the Lead Rule. Rather, as stated in the draft report, we believe that the
training manual needs clarification. When we were conducting our evaluation, EPA was
recommending additional work practices in a mandatory training program on how to comply
with the Lead Rule. The OIG maintains that contractors may believe that they could be liable for
non-required, or recommended, work practices.

The Draft Report recommends that EPA include disclaimer language for the training course
instructor manual, pertaining to EPA's economic analysis and impacts on individual contractors.

EPA agrees with the intent of this recommendation, but not the specific approach recommended.
Instead of a disclaimer, EPA made several changes in the October 2011 instructor manual that


12-P-0600                                                                                        25
further communicate the difference between required and recommended work practices. An
Economic Analysis is not intended to serve as a cost estimation guide for individual members of
the regulated community, either for actions that are required by regulation or for those that are
merely recommended. Additionally, the primary purpose of the Lead Safety for Renovation,
Repair and Painting training is to teach contractors about required work practices. Hence, the
primary focus of the instructor manual is to provide Training Providers with material to
communicate that required work practices must be performed to comply with the RRP
regulations. As the result of changes made to the 2008 RRP rule, as noted above, EPA has
already revised and published the updated instructor manual in October 2011.

Footnote 3: In the July 2010 issue of Fine Homebuilding magazine, the article titled "The EPA's
new Renovation, Repair, and Painting Rule" contained the following question/response:
Q: Doesn't the RRP rule leave contractors vulnerable to potential lawsuits?
No. On the contrary, actually. If you've been working in older homes, you have already been
assuming liability for the results of your remodeling work. (In other words, you could have
been sued if your work endangered a child.) Adopting lead-safe work practices will reduce
rather than increase the likelihood that your remodeling work will be linked to a case of lead
poisoning, thereby lowering rather than increasing your liability. If you're certified and have
documented the process properly, you're actually better protected from such suits.

OIG Response 14: EPA agrees with the intent of recommendation 2. EPA’s revisions to the
training manual occurred after we notified the Agency of this issue. On September 1, 2011, the
OIG provided EPA with preliminary report findings, which included a potential recommendation
to add a disclaimer to the instructor manual to communicate the difference between required and
recommended work practices. We acknowledge EPA’s steps to improve the training manual and
its communications on recommended versus required work practices.

Limitations in Benefit Analysis:

The Draft Report states that EPA acknowledged that it has limited confidence in the stated
benefits because the Agency had not determined why the benefits analyses contained unusual
results.

EPA believes the Draft Report fails to provide context for this statement. EPA stated in the
preamble to the final rule (73 Federal Register 21751) that "EPA does not view the results as
being sufficiently robust to represent the difference in magnitude of the benefits across
regulatory alternatives. Nevertheless, EPA is confident that there are positive benefits."

OIG Response 15: We agree and acknowledge that EPA believes there are positive benefits
resulting from the final rule. Specifically, the draft report’s first sentence in the section entitled
Limitations in Benefit Analysis states: “In its economic analysis for the 2008 Lead Rule, EPA
stated that the rule would generate substantial benefits.”

The Draft Report points to EPA's sensitivity analysis indicating that variation in lead levels over
time could decrease estimated benefits by 14 percent, and refers to statements made by the Clean
Air Scientific Advisory Committee (CASAC) about the Dust Study.



12-P-0600                                                                                                26
EPA believes that the Draft Report failed to properly reference CASAC's finding, particularly
that uncertainty can also lead to underestimating benefits. CASAC concluded that these factors,
as well as others "might lead to either an overestimate or an underestimate of risk, and hence an
overestimate or underestimate of the benefits of the regulation." CASAC did not conclude solely
that benefits were overestimated. CASAC stated elsewhere in the report that it was concerned
that OPPT's methodology was likely to underestimate IQ loss. One of CASAC' s overarching
concerns was that EPA should give greater priority to decreasing childhood lead exposures.
CASAC stated that there is ample evidence that exposure of children to lead dust poses a major
health risk, and it concluded that renovation and repair activities where lead-based paint surfaces
are present requires practices that minimize dust exposure to children. CASAC suggested
adopting more stringent practices than EPA proposed in order to better protect children from lead
dust. These are indications that CASAC felt the benefits of controlling lead dust from renovation
exceeds the cost, whatever the specific magnitude of the benefits and costs.

OIG Response 16: We agree that CASAC discussed positive aspects of EPA’s plan to analyze
the Lead Rule. For example, the OIG draft report states that CASAC found that the dust study
was reasonably well designed considering the complexity of the problem, and that the report
provided information not available from any other source. However, CASAC also identified
some key limitations in the analysis that were used to determine the benefits. For example, the
dust study was most likely not statistically valid or nationally representative because of the
limited data used. Also, CASAC found that the data were inadequate to support the proposed
modeling approach for estimating the IQ changes in children exposed during renovations.

OIG asserts that the effect of the structures' age in the Dust Study on the benefits estimates is a
significant limitation that provides a rationale for reconsidering the requirements of the RRP
rule.

EPA disagrees. While most of the housing used in the Dust Study was built prior to 1930, the
distribution of paint lead levels on components worked on covered a broad range from 0.8% to
10.2% lead by weight for interior jobs and from 1.3% to 16.8% lead by weight for exterior jobs.
These ranges of paint lead levels are consistent with the range of levels reported in the National
Survey of Lead and Allergens in Housing for components with lead-based paint. Thus, the range
of structures in the Dust Study did provide a reasonable basis for EPA's analysis.

Furthermore, EPA's charge questions specifically requested CASAC's advice on how to adjust
the estimates based on changes in lead levels in paint over time. The CASAC Panel did not
recommend a suggested approach for making such an adjustment. Because there were significant
uncertainties in how to accurately adjust benefits for variations in lead levels over time, it was
appropriate for EPA to address the adjustment in the sensitivity analysis. Since EPA's primary
estimate was that benefits were 69 percent to 313 percent larger than the costs, net benefits
would still be positive and substantial even if benefits decreased by 14 percent due to an
adjustment for change in lead levels over time.




12-P-0600                                                                                             27
OIG Response 17: The OIG did not assert that the effect of the structures’ age in the dust study
provides a rationale for reconsidering the requirements of the RRP rule. The OIG also did not
state that the structures’ age was a significant limitation, but does acknowledge that it is a
limitation nonetheless. EPA also acknowledges that the structures’ age is a limitation as it states
above, “The CASAC Panel did not recommend a suggested approach for making such an
adjustment. Because there were significant uncertainties in how to accurately adjust benefits for
variations in lead levels over time, it was appropriate for EPA to address the adjustment in the
sensitivity analysis.”

Conclusions

OIG's report states that EPA went forward with the rule because its benefit-cost analysis
indicated that the rule generated substantial benefits.

EPA went forward with the rule because it was required to do so by statute. Work practices were
necessary to address lead-based paint hazards and were based (as directed by the statutory
standard) on studies of renovation activities. Based on the results of the four-phase study entitled
"Lead Exposure Associated with Renovation and Remodeling Activities," EPA concluded that
all renovations that disturb lead-based paint create lead-based paint hazards. Upon making this
finding, EPA was obligated to issue regulations under TSCA § 402( c )(3) that addressed those
hazards, taking into account reliability, effectiveness, and safety. EPA reviewed a number of
studies in developing work practice requirements, but the Characterization of Dust Lead Levels
After Renovation, Repair, and Painting Activities (the "Dust Study") was EPA's primary work
practice resource in crafting the requirements of the final RRP rule.

OIG Response 18: We agree that our draft report states that EPA went forward with the rule
because its benefit-cost analysis indicated that the rule generated substantial benefits. However,
that is not a complete representation of the OIG’s position. For example, the OIG also recognizes
that EPA was required to do so by statute. The OIG also does not question the dust study as
being the most useful data available at the time EPA was issuing the Lead Rule. Although the
dust study may have been the best available information, there were limitations with the data that
were acknowledged by not only CASAC but also by EPA. As the OIG has represented
throughout its response, we acknowledge that EPA was under time pressures and a mandate to
issue the Lead Rule. Even under optimal conditions, federal agencies may not have access to the
quality information needed to conduct sufficient economic and benefits analysis for federal
rulemaking purposes. The constraints EPA was operating under were factors in the quality and
quantity of information it relied on in developing the economic and benefits analysis for the Lead
Rule. However, in the current regulatory environment, EPA has other options than to solely rely
on decisions and analyses that were admittedly developed under less than optimal rulemaking
conditions. We believe that the new federal requirements to conduct retrospective analysis of
existing rules, as well as the existing requirements under the Regulatory Flexibility Act, provide
opportunities to examine the implications of the use of Agency discretion and, where
appropriate, make changes to achieve effective and fair federal rules.




12-P-0600                                                                                         28
                                                                                  Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention




12-P-0600                                                                                 29
